Supreme Court, U.S.
FILED

JUL 2 0 2020
OFFICE OF THE CLERK

No.

JO-J/J
IN THE

Supreme Court of the United States
SHERRY HERNANDEZ,
Petitioner
v.

PNMAC MORTGAGE OPPORTUNITY FUND
INVESTORS, LLC; PENNYMAC LOAN SERVICES, LLC;
and DOES 1-20, Inclusive,
Respondents

On Petition for a Writ of Certiorari to the
California Court of tAppeal

PETITION FOR WRIT OF CERTIORARI

Rhonda Hernandez
Counsel ofRecord
Hernandez Law Office
P.O. Box 16924
Galveston, Texas 77552
(409) 939-4546
Rhonda.Hdz@gmail.com
Counsel for Petitioner

EJ

|

1

QUESTIONS PRESENTED
1.

Did the California Superior Court and the Court of
Appeal deprive Petitioner of her right to Due Process
guaranteed by the Fourteenth Amendment, by
Remanding to plead wrongful foreclosure based on
fraudulent documents, and then violate the law of the
case by reversing itself without notice?

2.

Can PNMAC Mortgage Opportunity Fund
Investors,LLC, as a purported member of the MERS
System, direct its agent or employee to execute an
instrument in the capacity of an Assistant Secretary of
MERS assigning a property interest to itself, without
giving consideration to the true beneficial owner of
the property interest?

2

PARTIES TO THE PROCEEDING BELOW
The case caption contains the names of all parties who
were parties in the California Court of Appeal, with the
exception of MTC Financial, Inc. d.b.a. Trustee Corps,
Defendant, who was dismissed in Case No. B258583 Opinion
of the California Court of Appeal entered June 27, 2016.
Respondents PNMAC Mortgage Opportunity Fund
Investors, LLC and PennyMac Loan Services, LLC are
identified here as PMNAC and PennyMac, respectively.

3

TABLE OF CONTENTS

QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING BELOW

,2

TABLE OF CONTENTS

3

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISION INVOLVED

1

INTRODUCTION

.2

STATEMENT OF THE CASE

3

1. How financial institutions can foreclose on homes
without holding the debt instruments...........................

5

2. The process of taking a home wrongfully..............

7

3. The Assignment of Deed of Trust is a self-assigned
instrument, where the assignor is the agent of the
assignee.........................................................................

9

4. The wrongful foreclosure action begins during the
bankruptcy proceeding................................................. 10
REASONS FOR GRANTING THE PETITION

13

A. Procedural Due Process Violations Can Occur Where
A State Court Takes Judicial Notice of Material Disputed
Facts, Violate the Law of the Case Doctrine, and Consider
13
Fabricated Evidence In Making Its Decisions

4

1. The fundamental requirement of due process is the
opportunity to be heard at a meaningful time and in a
meaningful manner........................................................ 13
2. State action deprived petitioner of due process when
the trial court and the Court of Appeal judicially noticed
facts which were material but not undisputed................ 17
3. The California Court of Appeal's ruling in upholding
the nonjudicial foreclosure, by surprise and without
notice, and contrary to the law of the case, was
unconstitutional because it violated the Homeowners'
federal due process rights protecting their home............ 19
4. The Law of the Case Doctrine.................................. 20
B. Financial Institutions Have Used The Mers® Database To
Serve Themselves By Concealing Their Lack Of Ownership
Interest As Members Self-Assign Notes And Debt
Instruments To Themselves At The Expense Of The
21
Homeowners
1. The Financial Institutions created MERS® to promote
efficiency in the transfer of real property interests while
reducing costs, theoretically, for the benefit of the
21
Borrowers
2. The Financial Institutions who created MERS®
allowed it to evolve into a shield for concealing the
conduct described here, leaving a path of destruction in
its wake as homeowners are wrongfully foreclosed and
land title records across all States rendered unreliable ...25
3. The wave of self-assignments and document creation
exists and must be contained.......................................... 28
CONCLUSION

31

5

TABLE OF AUTHORITIES
Cases
Alimenav. Vericrest Fin., Inc.,
964 F. Supp. 2d 1200 (S.D. Cal. 2013)

Page
5

Armstrong v. Manzo,
380 U.S. 545 (1965)
Arrington v. Helms
438 F.3d 1336 (11th Cir. 2006)
Barrionuevo v. Chase Bank
885 F. Supp. 2d 964 (N.D. Cal. 2012)

4

Blackburn v. UPS, Inc.
179 F.3d 81 (3d Cir. 1999)

7

Cty. ofMultnomah v. Mortg. Elec. Registration Sys.,
No. 3:13-cv-OOl44-HZ, 2013 U.S. Dist.
LEXIS 200604 (D. Or. Apr. 18,2013)..................
Costanich v. Dep't ofSoc. & Health Servs.
627 F.3d 1101 (9th Cir. 2010)...............
Credit Managers Association of
Southern California v. Superior Court,
51 Cal.App.3d 352 (1975)...............
Culhane v. Aurora Loan Servs.
826 F. Supp. 2d 352 (2011).
Davidson v Cannon

5

6

474 U.S. 344(1986)
DeShaney v. Winnebago County Dep’t ofSocial Services,
489 U.S. 189(1989)......................................................
Fuentes v. Shevin
407 U.S. 67(1972)
Glaski v. Bank ofAmerica
219 Cal. App. 4th 1079 (2013)
Grayden v. Rhodes,
345 F.3d 1225 (2003)
Grannis v. Ordean,
311 U.S. 457(1914)
Grimes v. Fremont Gen. Corp.,
933 F. Supp. 2d 584 (2013)
Hartman v. Deutsche Bank Nat. Trust Co.,
No. 07-5407, 2008 WL 2996515
(E.D.Pa. Aug. 1, 2008)..........................
In re Escher
369 B.R. 862 (E.D. Pa. 2007)
Jones v. State,
170 Wn. 2d 338; 242 P.3d 825 (2010)
Kingv. Ocwen,
Civil Action No. 07-11359, 2008 WL 2063553
(E.D.Mich, April 14, 2008).............................

4

7

KMPGLLPv. Cocchi,
565 U.S. 18(2011).

8

Landmark Nat. Bank v. Kesler
No. 98,489, 2008 WL 4180346
(Kan. Ct. App., Sept. 12, 2008)
Lester v. J.P Morgan Chase Bank, N.A.,
926 F. Supp. 2d 1081 (N.D. Cal. 2013)

5

Logan v. Matveevskii
175 F. Supp. 3d 209 (2016)
Martinez v. Cal. (1980)
444 U.S. 277, 281-282
Mathews v. Eldridge
424 U.S. 319(1976)
McDonough v. Smith
139 S. Ct. 2149(2019)
Miller v. Homecomings Financial, LLC
881 F. Supp. 2d 825 (S.D.Tex. 2012)
Milliken v. Meyer,
311 U.S. 457 (1940)
Montgomery County v. Merscorp, Inc.
No. ll-CV-6968 (E.D.Pa. Sep. 8, 2014)
Morrissey v. Brewer,

5

8

408 U.S. 471 (1972)
Mullane v. Cent. Hanover Bank & Trust Co.
339 U.S. 306(1950).................................
Musacchio v. United States,
136 S. Ct. 709 (2016).....
O ’Brien v. Board ofEduc. of the
City Sch. Dist. ofNew York
1982 U.S.Dist.LEXIS 13924..
Priest v. Board of Trustees of Town ofLas Vegas
232 U.S. 604(1914).......................................
Shelley v. Kraemer
334 U.S. 1 (1948)
Sundquistv. Bank ofAm., N.A.
566 B.R. 563 (Bankr.E.D.Cal. 2017)

4

United States, et al, Plaintiffs, and Szymoniak, ex Rel. v.
American Home Mortgage Servicing, et al, C.A.
10-CV-01465-JFA(D.S.C. 2012)................................
United States v. Salerno,
481 U.S.739 (1987)...
Yvanova v. New Century Mortgage Corp.
62 Cal.4th 919 (2016).........................

Statutes

8

9

U.S. Const. Amend. 14, § 1
28 U.S.C. § 1257(a)
USCS Fed. Rules Evid. R. 801(d)(2)(D)
31 U.S.C. § 3729 et seq.
8 U.S. Code § 1324c,

4

1

PETITION FOR WRIT OF CERTIORARI
Sherry Hernandez respectfully petitions this Court for a
Writ of Certiorari to review two decisions of the California
Court of Appeal together with the Judgment of the Superior
Court of Los Angeles County, California.

OPINIONS BELOW
The Court of Appeal opinions are unpublished;, included
in the Appendix (App) at App-1 and 3; and available at 2019
Cal. App. Unpub. LEXIS 7477, 2019 WL 5884370; and 2016
Cal. App. Unpub. LEXIS 5166. The judgment of the trial
court is unpublished and included in the appendix at App-2.

JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1257(a).
On February 19, 2020 the California Supreme Court entered
an order denying discretionary review. The time for filing this
Petition was extended by this Court’s March 19, 2020 order.

CONSTITUTIONAL PROVISION INVOLVED
This petition concerns the Due Process Clause of the
Fourteenth Amendment, which states in relevant part, No
State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

2

INTRODUCTION
Petitioner was denied her right to due process guaranteed
by the federal Constitution by the California Superior Court
and the California Court of Appeal. The issues here were
raised in the proceedings below and are in the record or
Petitioner’s pleadings. Two appellate opinions are at issue
and will be cited here as the 2016 Opinion and 2019 Opinion;
the judgment will be cited as the 2017 Judgment.
The trial court violated Petitioner’s Due Process when
ruling on Petitioner’s third amended complaint: (1) the trial
court, over Petitioner’s objections, took judicial notice of
documents the Court of Appeal had already ruled were not
judicially noticeable;1 2) the trial court denied Petitioner Due
l

Beneficial ownership in the Note to Petitioner’s home loan is the entire
controversy at this point in the case. The Respondents’ Request for
Judicial Notice (RJN) included an allonge to Note with a limited power of
attorney, and a declaration intended to authenticate those documents. The
trial court granted this same RJN in its judgment of 2014, over
Petitioner’s objections. The issue was raised on appeal and denied:
“The question of who the holder of a note is, however, is
disputable (at least in this case), and we will not assume the
truth offacts asserted in the Garcia declaration to disregard
the complaint’s contrary allegations. (Yvanova, supra, 62
Cal.4th at p. 924, fn. 1 [taking judicial notice of a recorded
deed of trust and other documents but “not of disputed or
disputable facts stated therein”].) Further, even if it were
proper to take judicial notice of the truth of the facts to
which Garcia attested in her declaration, there is nothing in
the declaration or on the second allonge to the Note itself—
which is undated—that establishes when PNMAC came to
be its holder. Without a basis to conclude PNMAC was the
holder at the time it instituted foreclosure proceedings, we
are convinced there remains a reasonable possibility plaintiff
can state a proper wrongful foreclosure claim.” (2016 Op.,
13) (emphasis added).

3

Process by reading the word “solely” into the instructions
with remand of the 2016 Opinion, precluding any additional
facts in support of the claim alleged, or adding new claims
based on newly discovered evidence. (6CT1263).
The Court of Appeal violated Petitioner’s right to due
process: (1) when the authoring justice of the 2016 Opinion
judicially noticed the documents rejected in 2016, reversed
the ruling without notice or opportunity to be heard on the
matter; (2) in so doing, the Court of Appeal accepted the
material, disputed documents (2019 OP. pi2) that Petitioner
has been consistent in alleging are fraudulent; (3) affirming
the judgment below violates the same Evidence Rule 452,
Judicial Notice, as did the trial court.
The noticed documents, never subjected to the discovery
process, permitted the Respondents to take Petitioner’s home
without just compensation. It occurring at the demurrer stage,
a homeowner loses a home to a stranger to the note, then the
courts deny the homeowner a meaningful opportunity to seek
damages for the wrongful taking.
STATEMENT OF THE CASE
The nature of the protected interest at stake here is a
property right: a cause of action for the unlawful taking of
Petitioner’s home. The underlying events began in 2011 with
a wrongful nonjudicial foreclosure based on a void
assignment of deed of trust (1CT51; 2CT266). Petitioner was
not in default when the loan servicing rights transferred to
PennyMac, as discussed below. (1CT48; 1CT226, 1CT232)
PennyMac immediately claimed a significant past due, but
never provided an accounting. When challenged,

4

Respondents declined to show PNMAC held an ownership
interest in the Note at the relevant time. (2016 OR pi 3).
Respondents also did not provide Petitioner with an
accounting of the past due balance, thus creating a system to
accomplish the wrongful foreclosure by concealing the
identity of owner of the claimed debt, a common practice
facilitated with the MERS® System.
Petitioner has raised federal claim below, including
wrongful foreclosure claim. "Several courts have recognized
the existence of a valid cause of action for wrongful
foreclosure where a party alleged not to be the true
beneficiary instructs a trustee to file a Notice of Default and
initiate nonjudicial foreclosure."2 In her Petition for Review
to the California Supreme Court, Petitioner re-urged her
federal claim, "Allowing the Hernandezes to state such a
cause of action [for wrongful foreclosure] would be
consistent with the long line of authority which holds that the
foreclosure is wrongful if initiated by a party which does not
have the legal right to do so.” (Barrionuevo v. Chase Bank
(N.D. Cal. 2012) 885 F.Supp.2d 964, 972; Glaski v. Bank of
America (2013) 219 Cal.App.4th 1079, 1094) (Petition for
Review, January 26, 2016, p. 10 ). Petitioner agrees.
Petitioner also raised the issue fraud. "The laws are very
clear with regard to fraud: 8 U.S. Code § 1324c - Penalties
for document fraud.”3. In the subsequent appeal Petitioner’s

2 Citing Barrionuevo v. Chase Bank, 885 F.Supp.2d 964, 972 (N.D. Cal.
2012) (B258583 May 15, 2015 AOB, p. 34).
3 The case was on appeal and the statement is in Appellant’ Opening
Brief, Case No. B258583, at p. 32), citing the statute verbatim.

5

Reply Brief cites to federal case law for the following claims:
failure to allege tender [in a wrongful foreclosure] is not fatal
where the sale is void;4 promissory estoppel applies where a
loan modification was in place;5 third parties such as
mortgagors could have standing to challenge the validity of
an assignment;6 tender is "not required where doing so would
be inequitable;”7 and “[b]anks are neither private attorneys
general nor bounty hunters, armed with a roving commission
to seek out defaulting homeowners and take away their
homes in satisfaction of some other bank's deed of trust.
Miller v. Homecomings Financial, LLC (S.D.Tex. 2012) 881
F. Supp. 2d 825, 832, (RB at p.29).
1. How financial institutions can foreclose on
homes without holding the debt instruments.
Historically, real property interests were protected by a
recordation system established hundreds of years ago. That
system was circumvented when the financial institutions in
this market created MERS in 1995 as an electronic database,
designed to be a tracking system for the transfer of property
rights among its membership institutions. The MERS®
System sells memberships to institutions involved in
4 Suntrust Mortg., No. C-U-2899 EMC, 2011 U.S. Dist. LEXIS 144442,
2011 WL 6294472, at 4 (N.D. Cal. 2011), found in Reply Brief (RB),
January 21, 2020 p.29)
5 Alimenav. Vericrest Fin., Inc., 964 F. Supp. 2d 1200 (S.D. Cal. 2013)
(RB, 40). Petitioner was days from qualifying for a permanent
modification when the loan servicing transferred to PennyMac.
6 Culhane v. Aurora Loan Servs., (2011) 826 F. Supp. 2d 352 (RB, 23)
7 Lester v. J.P Morgan Chase Bank, N.A., 926 F. Supp. 2d 1081, 1092
(N.D. Cal. 2013)(RB, 29)

6

mortgage transactions. MERS has its own set of rules and
guidelines for its transfer procedures, known as the MERS
Rules.8 Failure to follow its guidelines, which supplanted the
existing real property statutes, in every state, led to a federal
investigation involving Federal Deposit Insurance Company
(FDIC), the office of the Comptroller of the Currency (OCC),
and the Federal Reserve Board (FRB), which resulted in the
MERS Consent Order of April 11, 2011. The consent order
was an agreement that MERSCORP, Inc. (“MERSCORP”),
which was originally named “Mortgage Electronic
Registration Systems, Inc.”, the parent company and owner
of the electronic registry database, and its bankruptcy remote,
name only subsidiary then using the name “Mortgage
Electronic Registration Systems, Inc.” collectively, the
MERS® System would require MERS® System members to
follow its guidelines and establish a training program and
oversight system.
The legal authority under which MERS® operates has
never been defined. There is no uniform body of law. This
diversity of outcomes and its attendant litigation led to two
national settlements, The National Mortgage Settlement and
the MERSCORP Consent Orders, binding the financial
institutions and MERSCORP. (There are several National
Mortgage Settlements and numerous other regulatory
Consent Orders.) The Settlement and Consent Orders
exposed the practice of massive document creation for the
sole purpose of foreclosing on real property.

8 https://www.scribd.com/document/21417441/MERS-RULES-OFMEMBERSHIP

7

This case exemplifies the practices that have harmed and
continue to harm homeowners and should be taken up by the
Court to return stability to property rights.
2. The process of taking a home wrongfully
In 2008 Petitioner’s husband refinanced their family
home loan through Your-Best-Rate-Financial, LLC with
CitiMortgage, Inc. (CMI) as the loan servicer, in the amount
of $752,500.00. On the same day, Best-Rate-Financial
executed an allonge to Note transferring ownership to CMI.
The monthly payments were timely and above the minimum
amount due. CMI then pressed the Homeowners to apply for
a temporary payment plan (TPP) which was granted for the
purpose of a permanent reduction in the principal and interest
rate terms.
Days before the final payment was due on the TPP, the
loan servicing transferred to PennyMac. The first notice from
PennyMac stated the loan was seriously past due by
$24,902.60. Petitioner balked and requested an itemization of
that balance, which was never produced. Petitioner then
requested information on the beneficial owner of the Note.
PennyMac identified PNMAC as the note holder, but gave
varying dates of acquisition, which are included as exhibits
with the Third Amended Complaint (TAC) and are in the
record on appeal. (1CT237; 2CT241, 2CT346).
The PennyMac letters are submitted here to show
PNMAC did not have a beneficial interest in the Note at the
time the foreclosure proceedings commenced. The documents
are offered as admissions of a party opponent and admissible
pursuant to USCS Fed. Rules Evid. R. 801(d)(2)(D). See

8

Blackburn v. UPS, Inc. (3d Cir. 1999) 179 F.3d 81, 97
(statements made by agents or employees concerning matters
within the scope of the agency or employment are admissible
as admission by party opponent). These letters are
contradictory within themselves and with the allonge to Note,
which is undated, but nonetheless offered by the Respondents
with their RJN, and granted over Petitioner’s objections.
(4CT1003; RT603)
• Penny Mac letter dated March 17, 2011: PNMAC
acquired Note February 25, 2010 (App-5)
• PennyMac letter dated April 5, 2011: PNMAC
acquired Note February 25, 201 l(App-6)
• PennyMac letter dated August 28, 2012: PNMAC
acquired Note August 2, 2012 (App.II-7)
On January 18, 2012 the ADOT, purportedly from YourBest-Rate-Financial, LLC (dissolved May 30, 2010; 1CT202)
to PNMAC was recorded along with the Notice of Default,
triggering the nonjudicial foreclosure process under
California law. (Yvanova v. New Century Mortgage Corp.
(2016) 62 Cal.4th 919, 927) (trustee starts nonjudicial
foreclosure process by recording a notice of default and
election to sell). By Respondents’ own admission in their
above mentioned letter of August 28, 2012, PNMAC did not
have a beneficial interest in the Note in January 2012 and the
trustee was without authority to execute the Notice of
Default; therefore, PNMAC had no authority to substitute the
trustee on July 10, 2012, the date the substitution was
recorded, because the letter of August 28, 2012 purported
they did not acquire an ownership interest until August 2,
2012.

9

Next, the bankruptcy court forced PNMAC to create the
allonge to Note when co-borrower daughter sought
bankruptcy protection in U.S. Bankruptcy Court, Central
District of California, Los Angeles Division; Case No. 2:12BK-43888-ER. PennyMac moved for lift of the automatic
stay and Debtor objected on grounds of standing. PNMAC
offered the 2008 note with deed of trust, and allonge from
Best-Rate-Financial to CMI. Petitioner does not dispute these
documents. The ADOT, the core of the claim for wrongful
foreclosure, was also submitted; in its tentative ruling the
bankruptcy court questioned PNMAC’s party-in-interest
standing and gave the Respondents time to provide additional
evidence that PNMAC was entitled to enforce the terms of
the Note. PennyMac submitted an amended declaration with
a second allonge and a limited power of attorney—the three
documents that migrated to this case through the RJN.
3. The Assignment of Deed of Trust is a selfassigned instrument, where the assignor is the agent
of the assignee.
ADOT was executed by an admitted PennyMac
employee and acknowledged by another admitted PennyMac
employee.9 The signatory executed the instrument as
“Assistant Secretary of Mortgage Electronic Registration
Systems,” which purported to assign all beneficial interest
under the original deed of trust to its principal, PNMAC.
On January 16, 2012 MTC Financial, Inc. d.b.a. Trustee
Corps executed a Notice of Default and Intent to Foreclose,
9 The notary, during this time period was under investigation and later
convicted of a crime of moral turpitude, felonious notary fraud, bringing
her attestations into question.

10

although it was not the trustee of record. On January 18, 2012
PennyMac recorded the ADOT from MERS acting as
nominee for Your Best Rate Financial, LLC to PNMAC
Mortgage Opportunity Fund Investors, LLC, as well as the
Notice of Default. On February 14, 2012, a disputed date,
PNMAC executed a Substitution of Trustee appointing
Trustee Corps as trustee of the ADOT. Substitution was
acknowledged by a PennyMac employee (her notary’s
journal books for January 2012 had been submitted to the
Secretary of State for investigation) whose notary license was
revoked in the same time frame for failure to follow proper
record keeping procedures. Her notary books were never
surrendered as ordered by the State of California, barring
validation of the disputed date.
On July 3, 2012 Trustee Corps executed a Notice of
Trustee’s Sale. On July 10, 2012 PennyMac recorded the
Substitution of Trustee and a Notice of Trustee’s Sale. The
sale was noticed for August 6, 2012. By letter dated August
28, 2012, the third PennyMac letter referenced above,
PennyMac purported that PNMAC acquired its ownership
interest on August 2, 2012.
Subsequently, the foreclosure sale was held April 16,
2013, thirty days before the noticed sale date, without notice
to Petitioner. PNMAC was the sole bidder. In November,
2014 Petitioner and her family were evicted from their home.
4. The wrongful foreclosure action begins
during the bankruptcy proceeding
Prior to the bankruptcy court releasing the stay, on
March 3, 2013 Petitioner filed suit in Superior Court of the

11

State of California, Los Angeles County Southwest District,
Case No. YC068794. Defendants were PNMAC, PennyMac,
and MTC Financial. Petitioner also filed a Lis Pendens with
the county recorder’s office at the same time (CT566).
On July 15, 2013, PennyMac filed an Unlawful Detainer
(UD) action. Petitioner contested PNMAC’s ownership
interest in the Note and requested consolidation of the two
actions with the case in Superior Court. The request was
denied. On December 6, 2013, the day of trial, the UD court
entered judgment in favor of PNMAC without allowing
Petitioner to call witnesses or present evidence.
Meanwhile, on June 25, 2013 the Homeowner’s original
Complaint was amended and Respondents demurred. The
demurrer was sustained with leave to amend. The minute
ruling noted that Plaintiff’s complaint sounded in fraud.
(YC068794 ruling on submitted manners 8-19-2014) The
Second Amended Complaint alleged causes of action for:
violation of California Commercial Code; fraudulent
assignment; quiet title; wrongful foreclosure; and
cancellation of instruments. Respondents demurred, alleging
homeowners lacked standing to challenge title taken by the
nonjudicial foreclosure sale statutes. The demurrer was
sustained without leave to amend.
Petitioner appealed to the California Court of Appeal, in
Case No. B258583. The judgment was affirmed and MTC
Financial was dismissed from the case. Petitioner petitioned
the California Supreme Court for discretionary review. A few
months later, in Yvanova v. New Century Mortgage
Corporation, (2016) 62 Cal. 4th 919, the California Supreme
Court ruled that a borrower does have standing to challenge
assignments that are allegedly void, not merely voidable.

12

The case was remanded to the Court of Appeal for
reconsideration in light of Yvanova. Rebriefmg was requested
and Respondents submitted their RJN with the disputed
documents: the ADOT, second allonge to Note, a limited
power of attorney, and a declaration attesting to their
authenticity. The Court of Appeal denied the request on
grounds that the documents could not establish that PNMAC
held the Note at the relevant time. (See Fn. 1) The case was
remanded with instructions to give Petitioner an opportunity
to plead wrongful foreclosure based on void assignment.
Petitioner’s TAC with its 51 exhibits alleged wrongful
foreclosure based on a void assignment of deed of trust and
provided the details in support thereof: the ADOT was a self­
assignment, therefore void; the Note was not in default;
PNMAC did not hold a beneficial interest in the Note; the
trustee’s sale was void in that title was not perfected before
recording as well as the chain of title broken; Respondents
committed fraud on the court with their fraudulent, fabricated
documents; multiple claimants presented as being the holder
of the note.
Throughout the proceedings Petitioner has not wavered
from alleging the ADOT is void. Furthermore, the trial court
violated the law of the case doctrine when it judicially
noticed the disputed documents rejected by the Court of
Appeal; the RJN violated the express instructions of the
Court of Appeal and it was error to grant it; the break in the
chain of title renders void the ADOT and trustee’s deed of
trust; Respondents committed fraud on the court.
Upon the final ruling in sustaining the demurrer and
dismissing the TAC with prejudice, Petitioner moved to
vacate the judgment. The motion includes exhibits from the
ongoing discovery process, which indicate CMI has been

13

transferred the 2008 allonge to lender/investor other than
PNMAC. The motion was pending since 2017, but orally
denied on July 15, 2020 (the written order is pending).
On appeal, Petitioner raised the following issues:
PNMAC does not hold a beneficial interest in the Note at the
relevant time; the ADOT in part because the assignor is the
agent of the assignee; the trial court was silent on allegations
that PNMAC did not hold an ownership interest in the Note;
the trial court was silent on exhibits showing Appellant was
not in default when PennyMac acquired servicing rights; the
trial court was silent on the issue of multiple concurrent
claimants to the Note; the trial court violated the law of the
case doctrine by granting the Respondents’ RJN.
REASONS FOR GRANTING THE PETITION
A. Procedural Due Process Violations Can Occur
Where A State Court Takes Judicial Notice of
Material Disputed Facts, Violate the Law of the
Case Doctrine, and Consider Fabricated
Evidence In Making Its Decisions
1. The fundamental requirement of due process
is the opportunity to be heard at a meaningful time
and in a meaningful manner.
A Fourteenth Amendment procedural due process claim
has three elements: (1) a deprivation of a constitutionallyprotected liberty or property interest; (2) state action; and (3)
constitutionally-inadequate process. Arrington v. Helms (11th
Cir. 2006) 438 F.3d 1336, 1337 (procedural due process rules

14

are meant to protect persons not from the deprivation, but
from the mistaken or unjustified deprivation of life, liberty, or
property); Armstrong v. Manzo, 380 U.S. 545, 552 (1965)
(fundamental requirement of due process is the opportunity to
be heard at a meaningful time and in a meaningful manner).
The nature of the protected interest at stake here is a
property right: a cause of action for the unlawful taking of
petitioner’s home. Mathews v. Eldridge (1976) 424 U.S. 319,
333 (right to be heard before being condemned to suffer
grievous loss of any kind is a principle basic to our society);
Grayden v. Rhodes, 345 F.3d 1225, 1232 (11th Cir. 2003) (the
government must provide the requisite notice and opportunity
for a hearing "at a meaningful time and in a meaningful
manner;” (citing Fuentes v. Shevin, (1972) 407 U.S. 67, 80).
(Logan v. Zimmerman Brush Co. (1982) 455 U.S. 422, 428
(“a cause of action is a species of property protected by the
Fourteenth Amendment's Due Process Clause”); citing
Mullane v. Cent. Hanover Bank & Trust Co. (1950) 339 U.S.
306, 313; see also Martinez v. Cal. (1980) 444 U.S. 277,
281-282 (the Court noted that "[arguably]," a state tort claim
is a "species of 'property' protected by the Due Process
Clause.”).
Failure of state officials to follow the law and maintain
procedural safeguards is a denial of due process. The trial
court violated the Rules of Evidence (C.R.Evid 452(h) and
the law of the case doctrine. In affirming the judgment below,
the Court of Appeal also violated Cal. Rule of Evid. 452 as
well as the sound principles of adjudication upon which
Petitioner is entitled to rely. Where a partial adjudication has
occurred in an ongoing claim, and without notice, the

15

decision is reversed by the same authoring justice without
comment, thus ending the claim; this rises to a violation of
due process. Armstrong v. Manzo (1965) 380 U.S. 545, 550,
552 (1965) (“An elementary and fundamental requirement of
due process in any proceeding which is to be accorded
finality is notice reasonably calculated, under all the
circumstances, to apprise interested parties of the pendency
of the action and afford them an opportunity to present their
objections”) citing Milliken v. Meyer, 311 U.S. 457 (1940);
Grannis v. Ordean, 311 U.S. 457 (1914); Priest v. Board of
Trustees of Town ofLas Vegas, 232 U.S. 604 (1914).
The state’s trial court and Court of Appeal violated
Petitioner’s constitutional right to due process by failing to
follow its own rules without notice to Petitioner. “[T]he
action of the States to which the [14th] Amendment has
reference includes action of state courts and state judicial
officials.” Shelley v. Kraemer, (1948) 334 U.S. 1, 18 (state
court action is not immunized from 14th Amendment simply
because the act is of the judicial branch of government);
O'Brien v. Bd. ofEduc. of the City Sch. Dist. of NY., No. 76
Civ. 660 (PNL), 1982 U.S. Dist. LEXIS 13924, 17 (S.D.N.Y.
July 1, 1982) (state law procedures were adequate; it was the
failure of the state officials to follow them which denied
plaintiffs due process).
The process that is due is not specified in the
Constitution. “The Framers were content to leave the extent
of governmental obligation ... to the democratic process.”
DeShaney at 196. “[D]ue process is flexible and calls for
such procedural protections as the particular situation
demands.” Matthews at 335 (citing Morrissey v. Brewer, 408

16

U.S. 471, 481; Jones v. State, 170 Wn. 2d 338, 349-350
(2010) (Fourteenth Amendment grants the right to due
process of law to a person facing a deprivation of his or her
property by the State).
The test for balancing competing interests was set forth
in Matthews, “[^identification of the specific dictates of due
process generally requires consideration of three distinct
factors:
(1) the private interest that will be affected by the
official action;
(2) the risk of an erroneous deprivation of such
interest through the procedures used, and the
probable value, if any, of additional or substitute
procedural safeguards; and
(3) the government's interest, including the
function involved and the fiscal and
administrative burdens that the additional or
substitute procedural requirement would entail.”
Matthews at 335.
Availing Petitioner of her right to due process meets the
Matthews test:
(1) The private interest affected by the official action is
the opportunity for Petitioner to recover her home or to seek
damages for the unlawful taking of her property. When
government action depriving a person of life, liberty, or
property survives substantive due process scrutiny, it must
still be implemented in a fair manner. This requirement has
traditionally been referred to as "procedural" due process.”
United States v. Salerno, 481 U.S. 739, 741, 107 S. Ct. 2095,

»

17

2098 (1987). Here, the deprivation of procedural due process
results in an absolute bar to pursue a claim for the unlawful
taking of Petitioner’s property. The procedures used were not
absent or inadequate; they were misapplied.
(2) An erroneous deprivation of Petitioner’s
constitutional right to due process is significant. If Petitioner
cannot bring this action, she cannot pursue the recovery of
her home unlawfully taken from her.
(3) The burden on government here is nonexistent; it
has a constitutional obligation to give adequate due process.
Petitioner does not seek new procedures or modification of
existing procedures. Petitioner seeks to have the government
afford her the process she is due.
2. State action deprived petitioner of due process
when the trial court and the Court of Appeal
judicially noticed facts which were material but
not undisputed
Petitioner was deprived of her property interest without
adequate due process at the demurrer stage of the litigation.
The trial court took judicial notice of documents containing
facts that were material and assiduously disputed by
Petitioner. The Court of Appeal affirmed the taking of
judicial notice of material disputed facts.
Affirming the trial court’s ruling was a reversal of
authoring justice’s prior 2016 Opinion, which deprived
Petitioner of due process.
Judicial notice of disputed documents would be
fundamentally unjust; Petitioner’s cause of action be barred.
Without the allonge, the ADOT is of no value to PNMAC

18

“because the deed of trust automatically transfers with the
Note it secures—even without a separate assignment.” (2016
Op., 12). Without the documents PNMAC did not have
standing to foreclose. (Id. 13)
The 2016 Opinion also analyzed Petitioner’s likelihood
of succeeding on the merits that the ADOT is void:
But our reading of the operative complaint along
with the additional facts plaintiff now represents
she can plead establishes a reasonable possibility
plaintiff can go beyond mere allegations and
present a specific wrongful foreclosure theory on
which she intends to rely, namely, that the person
who ostensibly executed the Assignment, Graves,
in fact had no authority to act on MERS’s behalf;
or if he did, he did not in fact execute the
Assignment because the notary, Castillo, who has
since apparently been convicted (not just indicted)
for misuse of her notary seal falsely verified his
signature; and that just months before the
Assignment was ostensibly executed there were
competing claimants on the beneficial interest in
the Note. Id. at 12 (emphasis added)
Appellant alleged competing claimants to the beneficial
interest in the note, along with accompanying exhibits. The
reconveyance was recorded by a Bank of America loan
servicer (1CT42; 1CT126); the MERS website showed the
investor as Bank of America; Petitioner received a letter from
Bank of America dated September 11, 2011 stating that loan
servicing had been transferred to Real Time Mortgage,
(1CT63; 2CT548) CMI sent a letter, after the servicing

I

19

transferred to PennyMac, qualifying Petitioner for their TPP
plan. (1CT51; 2CT294).

3.

The California Court of Appeal's ruling in
upholding the nonjudicial foreclosure, by
surprise and without notice, and contrary to
the law of the case, was unconstitutional
because it violated the Homeowners' federal
due process rights protecting their home.

The surprise ruling allowing judicial notice of the
disputed documents, after the prior ruling denied judicial
notice, was a violation of the Homeowners' constitutional
guaranty against the taking of their home without due process
of law.
A specific due process claim was not made in the
proceedings below; the element of surprise in this context
could not be anticipated and Petitioner’s remedy of last resort
is discretionary review with this Court. As Pena viewed it,
“Likewise, federal law looks to the "substance"
of claims made on direct appeal; if any of the claims can be
said to "fairly present[]," expressly or by clear implication,
a federal constitutional claim then exhaustion requirements
have been satisfied as to those claims. Pena v. Hartley (10th
Cir. 2014) 576 F. App'x 749, 6; (see Picard v. Connor, 404
U.S. 275,278 (1971).

)

Taking judicial notice of documents not only highly
disputed but on which the case pivots, is so highly prejudicial
to Petitioner’s claims as to constitute a clear violation of due
process as guaranteed by the Fourteenth Amendment. As the

20

Pena court found, "In the event that evidence is introduced
that is so unduly prejudicial that it renders the trial
fundamentally unfair, the Due Process Clause of
the Fourteenth Amendment provides a mechanism for
relief."; Id.; see also Ochoa v. Workman, 669 F.3d 1130, 1144
(10th Cir. 2012).

4. The Law of the Case Doctrine
Declining to take judicial notice of the documents by
applying a reasoned principle of law establishes the law of
the case as to those documents. Logan v. Matveevskii (175 F.
Supp. 3d 209, 229 [S.D.N.Y. 2016]) (summarizing the law of
the case doctrine, “As a general matter, "[w]hen a court has
ruled on an issue, that decision should generally be adhered
to by that court in subsequent stages in the same case unless
cogent and compelling reasons militate otherwise” (citing
Grimes v. Fremont Gen. Corp., 933 F. Supp. 2d 584, 608
(S.D.N.Y. 2013) (internal quotation marks omitted); see also
Musacchio v. United States, 136 S. Ct. 709, 716 (2016)
(when a court decides upon a rule of law, that decision should
continue to govern the same issues in subsequent stages in
the same case).
Musacchio and that line of cases, Petitioner was entitled
to rely on the 2016 Opinion: the disputed documents did not
substantiate Respondents’ position, still in the same case; no
new evidence favoring admissibility has been put forward;
the issues remained the same as to these documents. Yet,
without comment, the same authoring justice of both
opinions, stated in 2019, “A second allonge to the Note
)

21

indicates “CitiMortgage, Inc. [b]y and through its Attorney in
Fact PNMAC Capital Management, LLC” endorsed the note
in blank, which would operate to assign its interest to
whoever actually holds the Note.” (2019 Op. at 3).
B. Financial Institutions Have Used The Mers® Database
To Serve Themselves By Concealing Their Lack Of
Ownership Interest As Members Self-Assign Notes
And Debt Instruments To Themselves At The
Expense Of The Homeowners
1. The Financial Institutions created MERS® to
promote efficiency in the transfer of real property
interests while reducing costs, theoretically, for the
benefit of the Borrowers
Financial Institutions originally created MERS® as a
database to track transfers of property rights between its
members without recording those transfers in the official land
records of the situs of the property. (Yvanova at 931 fn.7)
(MERS was formed by a consortium of residential mortgage
lenders and investors to streamline the transfer of mortgage
loans and thereby facilitate their securitization).
In practice, MERS has taken on the powers of a separate
entity on par with the lenders, servicers and trustees in
foreclosure proceedings.
To many courts it remains unclear what MERS actually
is. At the basic level, MERS is a Delaware corporation that
provides mortgage loan related services. But even MERS'
own contracts, attorneys, and spokespersons present a
muddled account of MERS' identity in relationship to the

22

mortgage loans registered on its database. Interestingly, the
company tends to argue it is an actual mortgagee or assignee
when it brings foreclosure actions. However, when sued in
cases alleging fraud, deceptive practices, or other statutory
consumer protection claims associated with loans registered
on its system, MERS argues it is merely an agent without
exposure to liability. Compare Landmark Nat. Bank v. Kesler,
No. 98,489, 2008 WL 4180346, at 1-2 (Kan. Ct. App., Sept.
12, 2008) ("What is MERS's interest? MERS claims that it
holds the title to the second mortgage .... MERS objects to
its characterization as an agent ... ") with In re Escher, 369
B.R. 862 (E.D. Pa. 2007) (“‘MERS’ as nominee leads the
Court to conclude that it cannot be liable on any of the
Plaintiffs [Truth in Lending or Pennsylvania consumer
protection] claims. A nominee is understood to be an agent
for another ... Therefore MERS will be dismissed from this
action and no further reference to MERS will be made.");
Hartman v. Deutsche Bank Nat. Trust Co., No. 07-5407, 2008
WL 2996515, 2 (E.D.Pa. Aug. 1, 2008) (accepting MERS'
argument that it could not be liable under the Truth in
Lending Act because there was no colorable allegation
"that ... [the plaintiff’s] mortgage loan was assigned to
MERS, or that MERS was ever the owner of that
obligation.”); King v. Ocwen, Civil Action No. 07-11359,
2008 WL 2063553 (E.D.Mich, April 14, 2008) (arguing that
MERS could not be liable for Fair Debt Collection Practices
Act violations because "HSBC was the mortgagee for the
property. Ocwen is the servicer for the property. [And,]
MERS acted solely as the nominee for the original mortgagee
of the property.”)

r

23

Ambiguity in the limits of authority of the MERS®
system was noted in a case brought by a Pennsylvania county
recorder for the same reasons as other county recorders, the
detrimental effect on land titles in counties across the States:
The creators of MERS did not lobby Congress for
a uniform, electronic mortgage system that could
have retained the public recording system’s
transparency and reduced costs. Rather, without
judicially or statutorily recognized legal authority,
they independently launched MERS as a private
system, and created legal theories to legitimate the
system post facto. Montgomery County v.
MERSCORP, Inc. (E.D.Pa. Sep. 8, 2014, No. 11CV-6968) 2014 U.S.Dist.LEXIS 129096; Amicus
brief of Legal Services Center of Harvard Law
School.
The conflict among the courts is exemplified here. The
2019 Opinion relies on L'Amoreaux v. Wells Fargo Bank to
validate the ADOT, executed by a PennyMac employee.
“[T]there is persuasive authority that MERS still would have
the power to execute the Assignment in that circumstance.
(See, e.g., L’Amoreaux v. Wells Fargo Bank, N.A. (5th Cir.
2014) 755 F.3d 748, 750 [“Although [the lender] had ceased
to exist at the time of the assignment, the Deed of Trust
explicitly contemplates MERS’s continuing to act as nominee
for the lender’s] ‘successors and assigns’”]; Ghuman v. Wells
Fargo Bank, N.A. (E.D. Cal. 2013) 989 F.Supp.2d 994,
1002-1003.) This alleged theory of voidness therefore fails.”)
(2019 Op. p. 13).

)

24

L’Amoreaux is not persuasive. The original lender
transferred the Note to another bank before going out of
business, thus MERS’ authority continued as there was no
gap between note holders. The Deutsche court rejected
L’Amoreaux as inapplicable due to the intervening
assignment. “MERS was no more acting on its own behalf
than was the bank’s own law firm.” Deutsche Bank Nat’l
Trust Co. v. Burke, 117 F. Supp. 3D 953, 961 (S.D.Tex. 2015)
(Rev., rendered on other grounds) (bank offered no proof of a
prior transaction by which it acquired its rights in the Note,
therefore assignment was void). On appeal, Deutsche Bank
presented evidence of an intervening transfer to the
bankruptcy trustee; the ruling was reversed). In this case,
PNMAC proffers an unenforceable contract for which it gave
no consideration, or a document with a signatory not
authorized to execute it. The TAC’s “no authority argument is
that, where Respondents admit PennyMac directed or ratified
the employee’s acts, PennyMac, as agent for PNMAC had no
authority to direct or ratify any part of that transaction.
Unsubstantiated documents used to deprive homeowners
of what may be their primary asset is widespread; litigation is
but one aspect. Homeowners suffer at the base level of the
problem, yet are the least able to defend against the financial
institutions causing the harm.

25

2. The Financial Institutions who created
MERS® allowed it to evolve into a shield for
concealing the conduct described here, leaving a
path of destruction in its wake as homeowners
are wrongfully foreclosed and land title records
across all States rendered unreliable
The inadequacies of the MERS® system as it currently
operates is confronted by random litigation at the individual
and local government level. County land title records are
weakened as the local officials try to serve their community’s
needs, at times turning to the courts to halt the effects of
MERS®, to no avail. A simple perusal through LexisNexis
returns over a thousand lawsuits by County Recorders
naming MERS as party, accusing MERS of creating a lack of
transparency in the county land records. A sampling follows.
Multnomah County, Oregon, in 2012, commissioned a
study of its records and promptly brought suit against MERS
and its members for the practices undermining the accuracy
and integrity of its document recording system. Cty. of
Multnomah v. Mortg. Elec. Registration Sys., No. 3:13cv-00144-HZ, 2013 U.S. Dist. LEXIS 200604, at 1 (D. Or.
Apr. 18, 2013) (settlement terms include prohibition against
MERS named as a beneficiary in any recorded instruments).
In Essex County, Massachusetts the county recorder’s
office was described as “a crime scene,” affecting thousands
of homeowners who, “through no fault of their own have had
their property rights trampled on and their chain of title
compromised.” The audit found 75 percent of all assignments
examined to be invalid, and another ten percent were
statutorily fraudulent.

26

The San Francisco County, California audit found
evidence of a substantial number of trust deed assignments
apparently executed by employees of the trustee or servicer
rather than of the entity holding the beneficial interest.
Guilford County, North Carolina sought declaratory
relief, unsuccessfully, from the naming of MERS in its title
records which resulted in a fundamental lack of transparency.
Guilford County ex rel. Thigpen v. Lender Processing Servs.,
2013 NCBC 30, 47, 2013 NCBC LEXIS 25, 27-28, 2013 WL
2387708 (“Plaintiff is not a party to those mortgage
documents at issue nor may it be said to be a direct
beneficiary of those documents.”)
Nueces County, Texas brought an action alleging
MERS’s deceptive practices created confusion among
property owners, damaged the integrity of the land records,
and caused the loss of millions of dollars in revenue to the
county. Nueces Cty. v. MERSCORP Holdings, Inc, No. 2:12CV-00131, 2013 U.S. Dist. LEXIS 93424, at 1 (S.D. Tex.
July 3, 2013) (holding, in part, MERS is not a lender, does
not have the rights of a lender, note holder, or note owner to
enforce a promissory note and seek a judgment against a
debtor for the repayment of loans).
In Osceola County, Florida a forensic examination
revealed a clear pattern of the MERS system being used to
benefit the investors and lenders. Instruments were executed
by “employees of law firms, attorneys and employees of
servicers and document manufacturing plants utilized the
titles of ‘Assistant Secretary of MERS’ and ‘Vice President of
MERS, ’ when in fact, they were employees of the various

27

entities conducting self-assignment of mortgages [ ] under
the direction of their supervisors(emphasis added)
In 2010 the U.S. Senate Committee on Banking, Housing
and Urban Affairs held a hearing to review the severity of the
housing crisis at that time. Testimony was received that the
laws regarding MERS varied from state to state. Id. Counsel
for the National Consumer Law Center testified: “[0]ut of
the hundreds of homeowners that I represented, in virtually
every case, I believe the homeowner was not in default when
you looked at the surrounding facts.” Id. 21-25.
The relevance of this minuscule sampling, is that rulings
regarding the conduct of PNMAC, as well all others who
robo-signed or backdated documents in order to fraudulently
show standing to foreclose, conflict widely from state to
state. This is an exceptionally important issue because there
is every reason why avoiding or overlooking PNMAC’s use
of the MERS “honor system” to perpetrate title fraud, has
resulted in oft-repeated errors and opposing rulings in the
lower courts. Moreover, this is not a one-off kind of woe the
Supreme Court must ignore. It is not that unusual to find
homeowners demurred out even after they alleged they were
entitled to an evidentiary hearing and prepared to prove they
did not default on their mortgages or loan modifications.
In this case, the Respondents insist Petitioner must prove
that, a) the signatory was not authorized to sign, or b) the
signature on the assignment was not actually his and the
notary fraudulently acknowledged it. The facts are, the
signatory was an admitted PennyMac employee, and a
purported MERS signing officer. His signature may or may

28

not be a forgery, and PennyMac may have authorized him to
execute the ADOT or ratified it later; nevertheless,
PennyMac, the agent of PNMAC, had no authority to direct
its employees to assign a property interest to its principal.
3. The wave of self-assignments and document
creation exists and must be contained
One classic case of self-assignment and document
creation is Szymoniak. In Szymoniak, self-assignment for the
purpose of immediate foreclosure led one victim to sue
multiple lenders, servicers, and document production entities
under the False Claims Act, 31 U.S.C. § 3729 et seq. The
United States joined the suit, and on February 4, 2012 entered
into agreed judgments with five of the defendants,
collectively known as the National Settlement Agreement
(the Agreement).
The Szymoniak live pleading at the time of the
Agreement alleges fraud based on self-assignments by
MERS’s signing officers, in detail and with specificity.
Among the many examples was a named employee of
mortgage servicer LPS and its designated MERS signing
officer. She executed multiple assignments with seven
different titles on behalf of seven different lenders, all in
favor of Bank of America, who in turn used those
assignments to foreclose on the borrowers (Symoniak SAC, p.
51-52). The same employee executed multiple assignments
with twenty-five different titles on behalf of twenty-five
different lenders for the benefit of Trustee Bank, who used
those assignments to foreclose on borrowers. (Id. at 52-53).

29

Concurrent with the Agreement, the United States, with
the individual States, reached a settlement with lenders and
servicers regarding the MERS practices, known as the MERS
Consent Order. MERS revised its Rules for Membership
pursuant to the Consent Order of 2011. (6CT1240:3-9; AOB
December 5, 2018, p.) Rule 3 states: “[I]n its Rules [for
Members], MERS agrees to assign a mortgage that it holds as
mortgagee of record ‘[u]pon request from the Member . . .
where the Member is also the current promissory note­
holder.’ MERS Rule 3, § 3.” Culhane v. Aurora Loan Servs.,
(2011) 826 F. Supp 2d 352, 371. [underline added for
emphasis] Oversight would be conducted by the Special
Inspector General for Troubled Asset Relief Program.
Periodic reports to Congress indicate a continuing failure of
compliance. This is not unexpected; the Agreements has no
enforcement mechanism, create no duty to the consumer, and
specifically prohibit a private right of action.
The National Mortgage Settlement was drafted to help
heal a broken financial system. Agreements were made
within the settlement to help homeowners keep their homes.
Taxpayer funds were pumped into the financial market to
help with struggling Financial Institutions. Modifications
were to be issued to correct the problems with homeowners
losing their homes.
The Modification solution outlined in the National
Mortgage Settlement provided a resolution for all parties, if
the chain of title had been lost, a signed modification would
correct the link and the homeowner should salvage their
home, the investor could recover their investment and the
Financial Institutions could correct their records. However,

30

many of the Financial Institution used the modification as
‘foam on the runway’ to foreclosure, instead.
Lending Institutions have continued with their bad
practices. This is noted in several of the SIGTARP reports
and outlined in the Appellant’s Opening Brief: “SIGTARP
Report of January 27, 2016, titled: “Mortgage Servicers Have
Wrongfully Terminated Homeowners Out of the HAMP
Program.” CMI was among the major lenders found to be
defaulting borrowers who were not in default. “SIGTARP’s
concerns over servicer misconduct contributing to
homeowner defaults in HAMP have been borne out.
Treasury’s findings . . . show disturbing and what should be
unacceptable results, as 6 of 7 of the mortgage servicers had
wrongfully terminated homeowners who were in “good
standing” out of HAMP.” As noted already, CMI was subject
to the National Mortgage Settlement Agreement of 2011
prohibiting it from doing exactly what was done in this case
in 2011. Moreover, the National Settlement Agreement binds
the signatories as well as their successors and assigns.
PennyMac is the successor servicer and PNMAC purports to
be the lender, therefore are subject to the agreement.
The conduct which led to the National Settlement
Agreement and the MERS Consent Judgment is
demonstrated in a bankruptcy case, Sundquist v. Bank ofAm.,
N.A. (Bankr.E.D.Cal. 2017) 566 B.R. 563, 571 (vacated in
part, as to distribution and terms of the punitive damages
award of $45 million). The bank violated the automatic stay
under 11 U.S.C.S. § 362(d) and, given its willful and
intentional conduct, was found liable for extraordinary

31

punitive damages pursuant to § 362(k)(i); the court describes
the conduct bank’s as a nightmare.
The mirage of promised mortgage modification
lured the plaintiff debtors into a kafkaesque
nightmare of stay-violating foreclosure and
unlawful detainer, tardy foreclosure rescission
kept secret for months, home looted while the
debtors were dispossessed, emotional distress, lost
income, apparent heart attack, suicide attempt,
and post-traumatic stress disorder, for all of which
Bank of America disclaims responsibility. Id.
In this case, Petitioner and her family never anticipated
the nightmare they are still living. Beginning with the
refinancing, then the modification disaster that brought the
Respondents into the situation, and the foreclosure based on
fabricated documents, having no value in 2016 but later
became the basis for affirming the judgment.
CONCLUSION
This case exemplifies the numerous cases where the
homeowner was dispossessed by way of fabricated
documents, the illusory modification plan, and a system that
does not agree on what MERS is. Guidance from this Court
would go far in assisting the courts across the country in
ruling on the numerous issues concerning MERS’ authority,
thus creating stability for all the parties involved in the
transaction.
The petition for a writ of certiorari should be granted to
give Petitioner the opportunity to show why the decision of
the Court of Appeal should be vacated and the case remanded
to be tried on the merits.

32

Respectfully submitted,
RhofedajHemandez
Counsel of Record
Hernandez Law Office
P.O. Box 16924
Galveston, Texas 77552
(409) 939-4546
Rhonda. Hdz@gmail. com
Counsel for Petitioner
July 20, 2020

